OIG Audit Report GR-30-01-002
Office of Community Oriented Policing Services Grants to the Maryland Department of Natural Resources Police
Audit Report GR-30-01-002		
December 29, 2000	
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Maryland Department of Natural Resources Police (DNRP).  The purpose of the grants was to enhance community policing.  The DNRP was awarded a total of $1,939,425 to hire 23 new police officers and redeploy the equivalent of 9.2 existing full-time officers from administrative duties to community policing.

We reviewed the DNRP's compliance with eight essential grant conditions.  We found weaknesses in the areas identified below.  As a result, we question $288,737 and recommend an additional $300,000 be put to better use.  1

For the hiring grants, the DNRP was unable to accept the $300,000 supplemental UHP award for 4 new police officers.  Therefore, we recommend that the funds be deobligated and put to better use.

 
	Also, for the hiring grants, the required number of total on-board officers was not maintained during the grant period we reviewed.  Although COPS has reimbursed the DNRP for 19 additional officers, the DNRP has only maintained, on average, the equivalent of 11.3 additional officers.  Thus the DNRP did not enhance community policing sufficiently or plan adequately for retention of the required number of additional officer positions.  We question $249,960 as a result.   

	For the redeployment grants, the DNRP did not redeploy all of the required officer positions to community policing.  We were only able to confirm redeployment for 2.9 of the required 4.7 positions.  As a result, we question $38,777 in costs charged to the redeployment grant.

	Several status reports were either not timely, or not filed.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.